  Office of Inspector General
      Audit Report


FAA OPERATIONAL AND PROGRAMMATIC
DEFICIENCIES IMPEDE INTEGRATION OF
   RUNWAY SAFETY TECHNOLOGIES
       Federal Aviation Administration


        Report Number: AV-2014-060
         Date Issued: June 26, 2014
           U.S. Department of
                                                                      Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Operational and Programmatic                                                Date:    June 26, 2014
           Deficiencies Impede Integration of Runway Safety
           Technologies
           Federal Aviation Administration
           Report Number AV-2014-060

  From:    Matthew E. Hampton                                                                  Reply to
                                                                                               Attn. of:    JA-10
           Assistant Inspector General
            for Aviation Audits

    To:    Federal Aviation Administrator

           While the Federal Aviation Administration (FAA) operates one of the world’s
           safest aviation systems, runway safety remains a significant concern—especially
           given the recent rise in the number of runway incursions. 1 Runway incursions
           increased by 30 percent from fiscal year 2011 (954) to fiscal year 2013 (1,241)
           despite slight declines in air traffic operations during that time. 2

           FAA has made runway safety a key oversight priority and currently uses Airport
           Surface Detection Equipment-Model X (ASDE-X) to allow air traffic controllers
           to detect potential runway conflicts. As part of its efforts to improve safety, FAA
           plans to integrate two runway safety systems with ASDE-X: the Runway Status
           Lights (RWSL) system, which gives pilots a visible warning when runways are
           occupied by other aircraft, and the satellite-based Automatic Dependent
           Surveillance-Broadcast (ADS-B), which provides simultaneous alerts for
           controllers and pilots of potential runway incursions and ground collisions.

           We initiated this audit to assess FAA’s ongoing efforts to implement and integrate
           surface surveillance technologies. On April 12, 2013, the Ranking Member of the

           1
             A runway incursion is any incident at an airport involving an aircraft, a vehicle, person, or an object on the ground
           that creates a collision hazard or results in a loss of separation with an aircraft taking off, intending to take off, landing,
           or intending to land. FAA’s definition only applies to airports with operating air traffic control towers.
           2
             Review of FAA’s Call to Action Plan for Runway Safety (OIG Report No. AV-2010-071), July 21, 2010. We reported
           that the number of serious runway incursions decreased after FAA implemented its August 2007 Call to Action Plan for
           Runway Safety. However, between fiscal years 2010 and 2012, the number of reported serious runway incursions, as
           well as the total number of all incursions, increased significantly while air traffic operations declined slightly. OIG
           reports are available on our Web site: www.oig.dot.gov.
                                                                                                               2


House Committee on Transportation and Infrastructure requested that we also
examine FAA’s actions to improve runway safety. 3 Accordingly, our overall audit
objective was to assess FAA’s progress in integrating ASDE-X with other
technologies to improve runway safety. Specifically, we assessed (1) the status of
ASDE-X implementation, (2) progress and challenges with RWSL integration, (3)
progress and challenges with ADS-B integration, and (4) the adequacy of FAA’s
plans to implement runway safety technologies.

We focused on those surface surveillance programs that have established cost and
schedule milestones. We conducted our work in accordance with generally
accepted Government auditing standards. Exhibit A details our scope and
methodology.

RESULTS IN BRIEF
FAA completed ASDE-X deployment at all 35 planned airports in 2011; however,
the system now requires hardware and software upgrades to maintain current
performance levels and meet anticipated increases in air traffic. Although FAA
budgeted $45 million through fiscal year 2016 for upgrades, it will require
additional funding to complete all testing of ASDE-X receivers and conduct two
remaining projects associated with upgrading ASDE-X remote units. FAA does
not anticipate problems with upgrading ASDE-X; however, until FAA can
complete sufficient operational tests it is uncertain whether and to what extent the
upgrades will impact ASDE-X’s performance.

FAA has encountered software deficiencies with its efforts to integrate RWSL
with ASDE-X, resulting in schedule delays and cost growth. Initial tests of the
system revealed critical deficiencies with system reliability and faulty RWSL light
fixtures that either provide false alerts or do not function at all. Further testing
identified 50 operational and technical issues, several of which involve software
and functional integration problems with RWSL. Thirty of these issues were still
unresolved when FAA deployed the first operational RWSL system in August
2013—2 years later than planned. In addition, FAA needs to develop additional
software to correct the faults found during testing before it can deploy the
remaining systems. Due to these software issues and increases in construction and
equipment costs, FAA rebaselined the RWSL program in July 2013. The new
baseline increased costs from $327 million to $367 million, reduced the number of
planned systems from 23 to 17, and delayed program completion by 2 years to
2017.

FAA has made progress deploying ADS-B technology at ASDE-X sites; however,
it has not fully tested ADS-B tools to enhance pilots’ surface awareness or
3
 We also initiated a companion audit addressing FAA’s Runway Safety Program, CC-2013-018, on April 12, 2013.
                                                                                                                         3


determined if these tools are technologically feasible. For example, FAA has not
completed testing to verify whether pilots can use moving map applications to
display ADS-B information in cockpits. In addition, FAA has halted work on
airport surface indicator alerts for pilots utilizing ADS-B due to technical
challenges with signal accuracy and frequency interferences discovered during
early demonstrations. Consequently, it is unclear when or how ADS-B will help
enhance pilots’ awareness of their and others’ location on the runway.

FAA’s planning documents used to communicate its goals for implementing
runway safety technologies lack key details regarding priorities, timing, and
accountability. For example, the plans do not specify how various surface
surveillance efforts will be integrated, when they will be available, or who is
responsible for deployment. FAA states that it intended these plans to be broad
and fluid so that it can make adjustments to changes in technology and funding.
However, without a clear roadmap, it is unlikely that any level of technology or
standard for runway safety can be measured or achieved.

We are making recommendations to FAA to aid its efforts to integrate surface
surveillance technologies and promote runway safety.

BACKGROUND
ASDE-X is a surface surveillance system designed to help maintain safe
separation of aircraft and vehicles on the airport surface and aid controllers in
avoiding ground collisions. ASDE-X processes data from airport surface and
terminal radars, multilateration sensors, 4 and the ADS-B system to provide a
seamless airport surface surveillance tool for air traffic controllers (see figure 1).
By fusing the data from these three sources, ASDE-X is able to determine and
display the position and identification of transponder-equipped aircraft and
vehicles on the airport movement area, as well as aircraft flying within 5 miles of
the airport. ASDE-X monitors traffic on runways and taxiways for conflict and, in
various scenarios, is able to produce an alert (visual and audible) to warn
controllers of pending ground collisions. FAA also intends for ASDE-X to be the
core system supplying data to other surface surveillance systems.

FAA is also planning to deploy a similar surface surveillance system—referred to
as the Airport Surface Surveillance Capability (ASSC)—at 9 additional airports
through 2017, increasing the total number of airports to receive improved
capabilities technology to 44. The newer ASSC system is basically the same as
ASDE-X, except that it does not need the input from the radar that is used for
airport surface movement. A complete listing of airports where FAA has deployed
surface surveillance technologies can be found in exhibit C.
4
    Multilateration sensors are airfield antennas that transmit and receive both aircraft transponders and ADS-B data.
                                                                                                          4


Figure 1. Airport with ASDE-X and Runway Status Lights




Source: FAA


The National Transportation Safety Board (NTSB) has long recommended that
FAA not only provide alerts to controllers managing air traffic, but also provide
alerts directly to pilots. The capability to alert pilots is especially important since
pilots caused 63 percent of runway incursions in a 5-year period ending September
2012. Additionally, we have reported 5 that FAA must expedite technologies, that
help pilots know their and others’ location on the runway to avoid close calls that
pose a safety risk to airline crews and passengers.

    • RWSL: RWSL consists of series of lights that automatically give pilots a
      visible warning when runways are not clear to enter, cross, or depart. RWSL
      must be integrated with ASDE-X because its operation is primarily based on
      ASDE-X surveillance data. In 2010, FAA approved funding to install RWSL
      systems at 23 airports from fiscal year 2011 to fiscal year 2016 6 at a cost of
      $327 million. RWSL prototypes are currently under evaluation at Boston,
      Dallas-Ft. Worth, San Diego, and Los Angeles airports, with the Orlando
      International Airport designated as the key site for the first fully operational
      RWSL system.

    • ADS-B: ADS-B is a satellite-based surveillance system that will provide
      inputs to ASDE-X from properly equipped aircraft and vehicles that
      automatically broadcast their position and identification information. ADS-B

5
  FAA Needs To Improve ASDE-X Management Controls To Address Cost Growth, Schedule Delays, and Safety Risks
(OIG Report No. AV-2008-004) Oct. 31, 2007.
6
  As of 2011, FAA had deployed ASDE-X systems at all airports slated for RWSL except for the San Francisco
International Airport in San Francisco, CA.
                                                                                                                       5


     information will be transmitted by ASDE-X to alert controllers of potential
     conflicts so that they can direct pilots to take action to prevent surface
     incidents. ADS-B input would also directly supply pilots with information on
     an airport moving map display showing an aircraft’s position relative to other
     runway vehicles and graphical depictions of ground and air traffic. FAA also
     plans to utilize ADS-B for providing direct alerts to pilots. FAA is in process
     of completing ADS-B deployment at all 35 ASDE-X sites, and the Agency
     plans to complete ADS-B deployment at the 9 additional airports with the
     ASSC systems by 2017.

FAA DEPLOYED ASDE-X AT ALL PLANNED SITES, BUT
CRITICAL UPGRADES TO THE SYSTEM ARE NEEDED
FAA completed ASDE-X deployments at 35 airports, 30 of which handle
68 percent of operations in the National Airspace System (NAS). 7 The Agency is
also deploying the newer ASSC system with similar capabilities at nine additional
airports by 2017. However, FAA must now upgrade the deployed ASDE-X
hardware and software to ensure the system is supportable through its designated
2030 lifecycle, is compatible with ASSC, and meets the increasing demands of
ADS-B message traffic over the coming years.

FAA is upgrading ASDE-X systems at the 35 sites to address operational
deficiencies with the current design by replacing obsolete parts. According to
FAA, these upgrades involve several efforts: procuring spare parts to ensure that
sufficient stock is available to replace failed units, replacing processors 8 and
multilateration receivers, 9 and upgrading remote units. 10

According to FAA, a number of key interdependencies associated with
development of the newer ASSC system are critical for FAA to successfully
upgrade ASDE-X systems. For example, some of the spare parts needed to support
ASDE-X are being redesigned under ASSC so they will only be available for
purchase at the completion of the development effort. Additionally, while FAA is
planning to replace ASDE-X processors with the ASSC processors that are now in
development, the associated software integration and testing must be completed

7
  FAA activated the first ASDE-X system for operational use at General Mitchell International Airport in Milwaukee,
WI, in October 2003 and installed the last system at Memphis International Airport, TN, in July 2011.
8
   The replacement of these processors, including ones used to interface with RWSL and ADS-B, will allow for the
merging of ASDE-X and ASSC software, and also provide a common performance standard across all sites to simplify
software maintenance.
9
  Specifically, the receivers that need upgrading are the ones that receive inputs from general aviation aircraft, because
the existing design fails to meet some performance requirements and causes the random loss of ADS-B messages.
10
    These upgrades include an increase in remote unit data transmission rate to ensure ADS-B provides complete and
continuous coverage as ADS-B data rates increase in the future. Additionally, the remote units require time
synchronization to the Global Positioning System—a space-based satellite navigation system—to increase
multilateration positional accuracy and system availability.
                                                                                                                   6


before the processors can be used in ASDE-X. FAA is also planning to replace
ASDE-X multilateration with another system currently under development and
designed to support ASSC; however, FAA is uncertain about when it will
complete these upgrades. 11 Therefore, where possible, FAA plans to take
advantage of ASSC program development efforts to accomplish a common
platform for ASDE-X and ASSC hardware and software. These efforts will also
reduce duplicative activities for testing, documentation, and training needed to
support ASDE-X upgrades.

Additionally, FAA has not fully funded all activities to complete ASDE-X
upgrades. Although FAA budgeted $45 million through fiscal year 2016 for some
upgrades, it will need more funding to address the remaining ASDE-X operational
performance limitations and obsolescence issues. For example, FAA approved
funds to procure spare parts and replace ASDE-X processors and multilateration
receivers. However, FAA has not provided funding to test the receivers.
Moreover, FAA has yet to fund the last two projects associated with upgrading
ASDE-X remote units. In fiscal year 2013, the ASDE-X program office initiated a
study to determine the best method of upgrading the communication circuits. 12
Once this study is complete, the program office will complete an accurate cost
estimate.

FAA states that it does not anticipate any problems with upgrading the ASDE-X
system. However, until the Agency completes operational and site testing, it is
unclear as to whether or how these upgrades will affect ASDE-X’s current
functionality or its ability to integrate with other systems. Completing these
upgrades in a timely manner is critical since ASDE-X is the core system for
transmitting data to the other surface surveillance systems. Moreover, any issues
affecting ASDE-X data integrity would affect the integrity of the other integrated
systems and add further uncertainties.

PROBLEMS WITH RUNWAY STATUS LIGHTS HAVE INCREASED
COSTS AND DELAYED THE PROGRAM’S SCHEDULE,
BENEFITS, AND INTEGRATION WITH ASDE-X
The RWSL program has experienced operational and technical issues, resulting in
cost growth and delays with ASDE-X integration. Operational tests have revealed
system integrity issues, while other tests have uncovered software and interface
problems for integrating RWSL with ASDE-X. As a result, FAA rebaselined the
RWSL program in July 2013, which significantly increased costs, reduced the
number of planned systems, and delayed program completion.
11
   FAA is currently projecting that effort to implement the required upgrades at all sites will begin in 2014 and end
sometime in 2018.
12
   The study will examine each ASDE-X airport and each of the ASDE-X system’s remote units.
                                                                                                                          7


RWSL Has Experienced Operational and Technical Deficiencies
During Key Site Deployment
The RWSL program has experienced problems since it completed initial operating
capability13 at the Orlando key site in July 2011, resulting in additional software
development and schedule delays. In RWSL tests completed in August 2011, FAA
identified a number of operational suitability issues that required hardware
changes, updated technical documents and training, and a new software build.
These actions resulted in a schedule slip of over a year.

In June 2012, a test conducted by an FAA’s Independent Operational Assessment
team 14 indicated that RWSL was not operationally ready for national deployment
due to seven safety and operational concerns, which include a lack of trained and
certified personnel, as well as spare parts with which to perform required
maintenance.

FAA installed the new software in Orlando in November 2012 and scheduled
another operational test in January 2013. Results from this test indicated that the
new software corrected problems revealed during the initial operational test but
also uncovered new issues. For example, testing officials observed faulty runway
light fixtures that had previously been classified as repaired, air conditioning units
in processing equipment areas that could not be remotely monitored, and light
fixtures that remained illuminated after being turned off by controllers. If
unaddressed or allowed to recur, these problems will result in increased
maintenance, reduced availability when needed, and potential safety concerns.

In January 2013, while testing the system to authorize RWSL system
deployment—referred to as the in-service review—FAA identified 50 operational
and technical issues. In spite of these issues, FAA declared an in-service decision
(ISD) 15 to proceed in March 2013. As of August 2013, 30 issues remained
unresolved, several of which involve complex software integration of potential site
adaptation changes and system interfaces needed to transfer data to FAA
navigation, communications, and weather systems.

According to FAA’s Acquisition Management System, FAA is only required to
develop an action plan to address in-service review issues but not to solve specific
issues before ISD. The Independent Operational Assessment team allowed FAA to
incorporate its unaddressed issues as part of the ISD action plan. However, if these

13
   Initial Operating Capability is the milestone where the system is used for its intended operations on a limited basis.
14
   The Independent Operational Assessment, conducted by FAA’s Safety and Technical Training office, is used to
provide decision makers with an independent determination of operational readiness in support of production and in-
service decisions.
15
   The in-service decision (ISD) authorizes deployment of a solution into the operational environment. It occurs after
demonstration of initial operational capability at the key test site(s) and before initial operational capability at any non-
key site or waterfall facility.
                                                                                                               8


issues remain unresolved, they will likely impact FAA’s ability to certify the
system and maintain software and interface integrity.

Despite issues uncovered during earlier tests, FAA commissioned 16 the first
system at Orlando in August 2013, 2 years later than originally planned. As a
requirement of commissioning the system, FAA developed a plan to address or
mitigate all operational testing issues. However, several test items remain open
and will not be corrected until a future software build is developed, which is now
underway. FAA is currently updating the RWSL software in preparation for the
next system deployment at Washington Dulles International Airport, scheduled for
commissioning in August 2014.

The RWSL Program Has Experienced Cost Growth and Schedule
Delays

The RWSL program has experienced cost growth, delaying the expected
capabilities needed to improve runway safety. There are site-specific cost
increases due to

     • higher-than-planned         costs     for     light    fixture      construction        and     shelter
       installations,
     • airports’ requests for more lighting than originally planned, and
     • limited availability of active runway and taxiways for construction activities.

For example, construction costs resulted in overall RWSL deployment cost
estimates at Atlanta and Denver airports of $80 million and $54 million,
respectively. Thus, FAA decided that it could not maintain an affordable schedule
deploying at these two sites and removed them from the schedule.

Software deficiencies and cost growth led to FAA’s decision to rebaseline the
RWSL program in July 2013. The new baseline increased the total program cost
by approximately $40 million (from $327 million to $367 million), decreased the
number of deployed systems from 23 to 17, and extended RWSL deployment
completion from 2015 to 2017 (see table 1).




16
 A commissioned system is one that has been formally accepted and placed into operational service in the National
Airspace System and the deployment site has assumed maintenance responsibility.
                                                                                                      9


Table 1. RWSL Deployment Schedule as of July 2013
                      RWSL Airport Locations               Month/Year for Initial       Month/Year for
                                                          Operating Capability (IOC)   Commission Date
1         Orlando International (FL)                      July 2011                  August 2013
2         Washington Dulles International (VA)            July 2013                  August 2014
3         Phoenix Sky Harbor International                August 2013                September 2014
4         Minneapolis/St. Paul International              November 2013              October 2014
5         George Bush Intercontinental (Houston, TX)      September 2013             November 2014
6         Seattle-Tacoma International (WA)               June 2014                  December 2014
7         Charlotte-Douglas International (NC)            July 2014                  January 2015
8         McCarran International (Las Vegas, NV)          August 2014                February 2015
9         Ft. Lauderdale-Hollywood International (FL)     September 2014             March 2015
10        Detroit Metropolitan Wayne County (MI)          November 2014              May 2015
11        LaGuardia (New York, NY)                        November 2014              June 2015
12        Chicago O’Hare International (IL)               February 2015              August 2015
13        Los Angeles International (CA)                  July 2015                  December 2015
14        Newark Liberty International (NJ)               September 2016             March 2017
15        John F. Kennedy International (New York, NY)    November 2016              May 2017
16        San Francisco International (CA)                November 2016              May 2017
17        Baltimore/Washington International (MD)         February 2017              August 2017
18        Logan International (Boston, MA)                     Site Removed From Baseline July 2013
19        Dallas/Ft. Worth International (TX)                  Site Removed From Baseline July 2013
20        San Diego International (CA)                         Site Removed From Baseline July 2013
21        Hartsfield-Jackson Atlanta International (GA)        Site Removed From Baseline July 2013
22        Denver International (CO)                            Site Removed From Baseline July 2013
23        Philadelphia International (PA)                      Site Removed From Baseline July 2013
Source: FAA


In moving forward with RWSL deployment at the 17 remaining airports, FAA
acknowledges that it must address a number of risks, in coordination with airport
authorities, before it can successfully deploy the system within the revised cost
and schedule baseline. These risks include stabilizing construction methods across
deployment sites, minimizing customized site adaptation and design, and
balancing the availability of runways for RWSL installation with airport
operations.

FAA also recognizes that it must continue efforts to provide direct warning
capability to pilots at the six airports that were removed from the original
schedule. For example, three of the six sites (Boston, Dallas/Fort Worth, and San
Diego) have prototype RWSL systems that FAA will continue to maintain through
fiscal year 2016. These airports will be considered for alternative solutions for
alerting pilots focused on ADS-B applications. However, the rebaseline decision
has resulted in delays to ASDE-X integration efforts, reduced benefits of improved
detection of runway incursions and ground collisions, and the loss of key airports
with prior experience and expertise with the new technology.
                                                                                                                   10


WHILE FAA HAS MADE PROGRESS INTEGRATING ADS-B AND
ASDE-X, IT IS UNCLEAR HOW AND WHEN ADS-B WILL BENEFIT
PILOTS
FAA has made progress deploying ADS-B technology with ASDE-X but has not
determined whether ADS-B applications will provide pilots with expected
benefits. FAA has not completed testing or demonstrations to determine whether
ADS-B traffic information can be displayed to pilots in the cockpit through
moving map displays. FAA also suspended efforts to provide pilots with direct
alerts of potential ground collisions and incursions using ADS-B data because the
Agency determined it needs more funding to address problems with the system’s
signal.

FAA Has Not Completed Sufficient Testing for the Use of Moving Map
Displays in Aircraft Cockpits That Utilize ADS-B Data
FAA has nearly finished installing the infrastructure needed to broadcast ADS-B
data at all airports with ASDE-X. However, FAA has not completed testing of a
highly anticipated airport moving map application to determine whether ADS-B
information can be displayed in the aircraft cockpit. In 2008, FAA’s Office of
Runway Safety established an Electronic Flight Bag 17 program to evaluate the
safety impact and usability of moving maps that can display an aircraft’s position
in relation to the airport’s surface. Although this evaluation ended in September
2012, FAA has not completed an additional study of Electronic Flight Bags that
includes the use of moving map displays supplied with traffic information from
ADS-B. Further, FAA has only approved the initial phase of a demonstration
project in Philadelphia that will use a certified Electronic Flight Bag device to
define procedures and provide a cockpit display of traffic information.

Despite incomplete testing, FAA tried to expand the use of ADS-B technology by
issuing guidance in 2011 for installing ADS-B equipment to enable moving map
displays with Electronic Flight Bag operation and installing and maintaining ADS-
B transponder units on airport service vehicles. FAA maintains that ADS-B
deployment at ASDE-X airports, including the capability of broadcasting surface
traffic information, will encourage air carriers to voluntarily equip with ADS-B
while also enticing airport authorities to sponsor efforts to equip their service
vehicles. According to FAA, this technology will give air carriers a positive return
on investment with increased accuracy and other benefits.

FAA is also continuing to conduct ADS-B demonstrations on aircraft and airport
vehicles with airport moving map displays and transponder equipment. However,
17
   An Electronic Flight Bag is an electronic display system intended primarily for cockpit or cabin use. The electronic
flight bag replaces the paper reference material that pilots typically carry.
                                                                                                                 11


the Agency has yet to verify whether these ADS-B applications can provide pilots
with the expected benefits. According to FAA, demonstrations with “commercial-
off-the-shelf” devices that are programmed to receive a traffic information service
supplied by ADS-B will help inform the aviation industry that moving map
applications will increase situational awareness.

However, FAA cannot quantify these benefits until air carriers choose to equip
with this technology and until accuracy levels improve with more use, feedback,
and development. At present, only about 2.5 percent of commercial air carriers are
using moving map technology in cockpit displays. FAA states that the moving
map display application is currently not an ADS-B program requirement and that
it can only mandate that aviation users adopt this function through rulemaking.
FAA also states that it will only develop timelines in response to user demand;
however, users are reluctant to equip due to cost, the lack of an immediate return
on investment, and the possibility that moving map technology may become
obsolete before they can realize the benefits.

FAA Has Halted Plans To Provide Pilots With Direct Alerting
Capability Based on ADS-B Data
FAA has suspended efforts to provide pilots with direct alerts of potential ground
collisions using ADS-B data. These surface alerts would be similar to ASDE-X
alerts for controllers and would enhance pilots’ situational awareness of other
traffic operating on runways and taxiways. Surface alerts would also be responsive
to an NTSB recommendation 18 for FAA to develop an automatic system to alert
pilots of attempted takeoffs from taxiways or wrong runways.

However, preliminary demonstrations on surface alert technology for pilots have
identified deficiencies with signal accuracy, integrity, and frequency interference.
Our review of the demonstration data showed that some targets did not have a
clear line of sight, resulting in poor detection performance. Although re-
broadcasting data from targets without line of sight to targets enabled with ADS-B
may mitigate this weakness, it would require that airports be equipped with ADS-
B surveillance and broadcast technology. The demonstrations also revealed that
airport structures, such as the security gates installed around aircraft hangars,
interfered with ADS-B signals and created blind spots on the airport surface. If not
addressed, this weakness would leave surface alert technology unable to reliably
detect aircraft operating on the surface, rendering the technology unsuitable for
airports that could gain the most benefit from a surface alert system for pilots.

18
   NTSB Safety Recommendation A-07-045, issued August 28, 2007 to FAA: Require that all 14 Code of Federal
Regulations Part 91K, 121, and 135 operators install on their aircraft cockpit moving map displays or an automatic
system that alerts pilots when a takeoff is attempted on a taxiway or a runway other than the one intended. Status is
currently Open-Unacceptable Response.
                                                                                                              12


FAA concluded from these demonstrations that surface alerting technology
requires a more complex design and upgrades to address these issues and stated it
needs funding for further research and development. However, FAA indicated that
research for how to provide ADS-B surface alerts will not be a funding priority
until it first develops a surveillance system for pilots that meets FAA’s
requirements. Consequently, it is unclear as to when ADS-B will enhance surface
awareness or how this technology will achieve benefits for pilots.

FAA’S PLANS TO IMPLEMENT SURFACE SURVEILLANCE
TECHNOLOGIES LACK KEY DETAILS ON PRIORITIES, TIMING,
AND ACCOUNTABILITY
FAA issued a biannual National Runway Safety Plan (NRSP) in September 2011
that identifies general roles, performance metrics, and current and emerging
technologies designed to impact runway safety. The plan also outlines initiatives
for runway safety, focusing on areas such as guidance, training, and infrastructure.
According to the NSRP, the purpose of the plan is to provide a coordinated vision
to achieve goals and objectives. Additionally, FAA’s 2013 NextGen
Implementation Plan (NGIP) outlines the Agency’s goals of providing surface
awareness for controllers and pilots to increase safety by expanding the use of
ASSC at designated airports and developing taxi benefits for aircraft equipped
with certified enhanced vision systems. 19

However, neither the NRSP nor the NGIP contain specific details regarding

     • which technologies are Agency priorities,
     • when technologies will be deployed,
     • how FAA will address integration challenges between the technologies,
     • what goals and performance measures FAA must achieve to enhance runway
       safety with these technologies, and
     • who will be accountable for ensuring technologies meet Agency goals.

According to FAA, the NRSP is intended to be a broad outline providing an
overall national strategy to ensure organizations with runway safety
responsibilities are working together. The NGIP is a document that covers a wide
range of NextGen initiatives and only discusses runway safety technology in
context with NextGen programs such as ADS-B. However, neither plan has a clear


19
  Certified Enhanced Vision Systems use imaging-sensor technologies to provide a real-time image of external scene
topography to the pilot but are currently approved for only situational awareness and safety while on the ground.
                                                                                              13


roadmap on how to achieve a particular level of technology or standard to actually
enhance runway safety.

In addition, FAA has a number of offices that cross several lines of business that
play a role in runway safety activities as shown in table 2.

Table 2. FAA Offices Involved in Runway Safety
FAA Office                  Roles/Responsibilities
Surveillance Services       Deploys surveillance systems in airport movement areas only.
Program Management Office   (Air Traffic Organization - Program Management Operations)
Runway Safety Group         Maintains incursion data repository, sponsors integration studies, and
                            performs independent assessments.
                            (Air Traffic Organization – Safety and Technical Training)
William J. Hughes FAA       Performs operational tests and ensures data integrity for surveillance
Technical Center            systems. (Office of Deputy Administrator (NextGen) – Test & Evaluation
                            Service Division)
FAA Technical Operations    Performs engineering and optimization activities for surface surveillance.
                            (Air Traffic Organization – NAS Engineering Group)
Office of Airports          Negotiates and provides contacts with airport authorities.
                            (Office of Airports – Airport Planning and Programming)
NextGen Demonstrations      Funds surveillance developmental activities and distributes data from
                            surface surveillance prototypes. (Office of the Deputy Administrator
                            (NextGen) –Technology Development and Prototyping Division)
Flight Standards            Provides standards, criteria, and policy on the design and use of future
                            ground-based, airborne, navigation, and surveillance systems.
                            (Aviation Safety – Flight Technologies and Procedures Division)
Source: OIG


While FAA has identified its offices that must work together to improve runway
safety, the Agency’s plans do not detail an overall coordination strategy needed
for these groups to integrate technologies in the NAS. FAA’s Runway Safety
Group, responsible for developing the NSRP, has experienced staffing reductions
in recent years due to budget constraints and lacks the visibility needed to
influence decision makers within FAA. As FAA moves toward portfolio
management of all of its surveillance systems, adequate coordination between
offices with roles in runway safety will be necessary to ensure successful
implementation of surface surveillance systems and prevent duplicative efforts.
                                                                                 14




CONCLUSION
While FAA operates one of the world’s safest aviation systems, runway safety
remains a significant concern. To ensure its safety technologies are fully
functional, effectively mitigate safety risks, and help prevent future accidents on
runways, FAA will need to address key operational and management issues with
its individual programs and develop a coherent strategy for an integrated runway
safety system with clear priorities and lines of accountability.

RECOMMENDATIONS
To improve FAA’s effectiveness in deploying and integrating surface surveillance
systems that improve runway safety, we recommend the Agency:

1. Develop and implement a plan, in coordination with airport authorities, to
   address issues, such as construction schedules and site adaptation/design that
   may impede RWSL’s deployment within cost and schedule estimates.

2. Develop and finalize timetables as to when ADS-B can be expected to impact
   surface surveillance systems through the use of moving map information in
   cockpit displays and surface alerts for pilots.

3. Develop specific milestones for integrating ASDE-X, ASSC, RWSL, and
   ADS-B based on coordination between offices involved in runway safety;
   identify the offices accountable for achieving these milestones; and publish this
   information in the FAA National Runway Safety Plan.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on April 22, 2014, and received its formal
response on June 11, 2014. FAA’s complete response is included in the appendix
to this report. FAA concurred with recommendations 1 and 2 and partially
concurred with recommendation 3. FAA provided appropriate planned actions and
completion timeframes for recommendation 1, but we are requesting that FAA
reconsider its response for recommendations 2 and 3.

Specifically, for recommendation 2, FAA concurred and stated that it has
published regulations that form a framework for manufacturers to build and install
avionics that overlay surveillance data for surface traffic on moving map cockpit
displays. We acknowledged in our report that FAA published regulations;
however, FAA’s response did not address our concerns regarding when the
                                                                                15


Agency will complete testing or demonstrations to determine whether (1) ADS-B
traffic information can be displayed to pilots through moving map displays or (2)
ADS-B applications can provide pilots with expected safety improvements. FAA’s
response also does not address when or if the Agency intends to move forward
with testing surface alerts for pilots using ADS-B data to avoid ground collisions.
This work is important because it addresses a longstanding NTSB safety
recommendation to FAA to provide surface awareness tools to pilots. Therefore,
we are requesting that FAA provide us with timeframes for when the Agency
expects to complete testing of ADS-B in relation to moving map displays and
surface alerts. Until we receive this information, we consider recommendation 2
open and unresolved.

For recommendation 3, FAA partially concurred, noting that programmatic
milestones are not appropriate for publication in its NRSP. However, our
recommendation did not reference programmatic milestones but rather integration
milestones—timeframes for completing tests and verification activities for linking
surface surveillance technologies that allow the introduction of new runway safety
capabilities. We maintain that integration milestones are necessary because
progress hinges on how well systems work together to achieve a level of runway
safety. These milestones should also be coordinated and managed. Therefore, we
request that FAA reconsider its response and specifically address integration
issues and related milestones in the NRSP. Until we receive FAA’s revised
response, we consider recommendation 3 open and unresolved.

ACTIONS REQUIRED
FAA provided appropriate planned actions and completion timeframes for
recommendation 1, and we consider it resolved but open pending completion of
the planned actions. We consider recommendations 2 and 3 open and unresolved,
and, in accordance with Department of Transportation Order 8000.1C, we request
that FAA provide the additional information described above within 30 days of
this report.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-1987 or Kevin Dorsey, Program Director, at (202) 366-1518.

                                        #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                              16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit from November 2012 to April 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

To assess FAA’s progress in integrating ASDE-X with other technologies such as
RWSL and ADS-B to improve runway safety, we focused our efforts on programs
designed to improve surface situational awareness for pilots and controllers.
Although there are other FAA initiatives designed to impact surface awareness, we
focused on these programs because they have current baselines established
through final investment decisions made by FAA’s Joint Resources Council.

We analyzed key program planning, implementation, and status documentation for
the ASDE-X, RWSL, and ADS-B programs. We reviewed various documents
from the Surface Program Management Office at FAA Headquarters, FAA
William J Hughes Technical Center in Atlantic City, NJ, and FAA’s Aeronautical
Center NAS Engineering Group in Oklahoma City, OK. We have also obtained
and reviewed documents on: investment decisions, requirements, budget, in-
service reviews, independent operational assessments, operational testing,
optimization reports, event analysis reports, and runway safety plans.

We interviewed surface surveillance program officials at FAA Headquarters, FAA
William J. Hughes Technical Center in Atlantic City, NJ, and FAA Aeronautical
Center NAS Engineering Group in Oklahoma City, OK. We also interviewed
various FAA officials from the Surveillance Services program office (which
include ASDE-X, RWSL and ADS-B program office officials), NextGen
Technology Development and Prototyping Division Office, Safety and Technical
Training Office (Runway Safety), Aviation Safety (Flight Standards Service),
Surface System Operations Services, Office of Airports (Safety and Standards
Division), and Air Traffic Safety Oversight to obtain program status information,
integration efforts, and identify risks.

We conducted a site visit at the Orlando, FL International Airport Air Traffic
Control Tower and the Greater Orlando Airports Authority to determine the status
of RWSL key site implementation and integration activities. We also visited the
Boston, MA Logan Airport Air Traffic Control Tower and the Massachusetts
Airports Authority to obtain information regarding RWSL prototype efforts at
Boston’s Logan Airport and integration activities.


Exhibit A. Scope and Methodology
                                                                             17



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
Federal Aviation Administration (FAA)
Headquarters
Surveillance Services Program Management Office                Washington, DC
Office of Airports, Planning and Programming                   Washington, DC
NextGen Demonstrations and Prototyping                         Washington, DC
Runway Safety Group, Office of Safety and Technical Training   Washington, DC

Sites
FAA William J. Hughes Technical Center                         Atlantic City, NJ
  Test and Evaluation Service Division
FAA Aeronautical Center, NAS Engineering Group             Oklahoma City, OK
Boston/Logan Airport Air Traffic Control Tower                   Boston, MA
Massachusetts Airport Authority                                  Boston, MA
Orlando International Airport Air Traffic Control Tower          Orlando, FL
Greater Orlando Airport Authority                                Orlando, FL




Exhibit B. Acti vities Visited or Contacted
                                                                                          18



EXHIBIT C. AIRPORTS WITH INSTALLED SURFACE
SURVEILLANCE TECHNOLOGIES
Airport                                               ASDE-X       ADS-B       RWSL
                                                      Installed   Installed   Installed
1. General Mitchell International (Milwaukee, WI)        Y           Y
2. Orlando International (FL)                            Y           Y           Y
3. T. F. Green State (Providence, RI)                    Y           Y
4. W.F. Hobby (Houston, TX)                              Y           Y
5. Seattle-Tacoma International (WA)                     Y           Y           N
6. Lambert-St. Louis International (MO)                  Y           Y
7. Hartsfield- Jackson Atlanta International (GA)        Y           Y
8. Bradley International (Hartford, CT)                  Y           Y
9. Louisville International – Standiford Field (KY)      Y           Y
10, Chicago O’Hare International (IL)                    Y           N           N
11. Charlotte-Douglas International (NC)                 Y           Y           N
12. Washington Dulles International (VA)                 Y           N           N
13. Detroit Metropolitan Wayne County (MI)               Y           Y           N
14. Phoenix Sky Harbor International (AZ)                Y           Y           N
15. John F. Kennedy International (NY)                   Y           N           N
16. Los Angeles International (CA)                       Y           Y           N
17. Ft. Lauderdale/Hollywood International (FL)          Y           Y           N
18. Newark Liberty International (NJ)                    Y           Y           N
19. Logan International (Boston, MA)                     Y           Y
20. George Bush Intercontinental (Houston, TX)           Y           Y           N
21. Miami International (FL)                             Y           Y
22. Denver International (CO)                            Y           Y
23. Philadelphia International (PA)                      Y           Y
24. Minneapolis-St. Paul International (MN)              Y           Y           N
25. Dallas/Ft. Worth International (TX)                  Y           Y
26. John Wayne-Orange County (CA)                        Y           Y
27. Salt Lake City International (UT)                    Y           N
28. Ronald Reagan Washington National (VA)               Y           Y
29. Chicago Midway International (IL)                    Y           N
30. San Diego International (CA)                         Y           Y
31. Honolulu International (HA)                          Y           N
32. LaGuardia (New York, NY)                             Y           Y           N
33. McCarran International (Las Vegas, NV)               Y           N           N
34. Baltimore/Washington International (MD)              Y           Y           N
35. Memphis International (TN)                           Y           N
                                                       ASSC        ADS-B       RWSL
                                                      Installed   Installed   Installed
36. San Francisco International (CA)                     N           N           N
37. Cleveland Hopkins International (OH)                 N           N
38. Cincinnati/Northern Kentucky International (KY)      N           N
39. Kansas City International (MO)                       N           N
40. Pittsburgh International (PA)                        N           N
41. Portland International (OR)                          N           N
42. Andrews Air Force Base (MD)                          N           N
43. Louis Armstrong New Orleans International (LA)       N           N
44. Ted Stevens Anchorage International (AK)             N           N
Source: FAA, Y=Yes N=No




Exhibit C. Air ports With Installed Surface Surveillance Technologi es
                                                               19


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                    Title

Kevin Dorsey                            Program Director

Arnett Sanders                          Project Manager

Kiesha Henson                           Senior Auditor

Jennifer Hoffman                        Senior Analyst

Calvin Moore                            Analyst

Andrea Nossaman                         Senior Writer-Editor




Exhibit D. Major Contributors to This Report
                                                                                                                 20



APPENDIX. AGENCY COMMENTS
                           Federal Aviation
                           Administration


Memorandum
Date:           June 11, 2014
To:             Matthew E. Hampton, Deputy Assistant Inspector General for Aviation
From:           H. Clayton Foushee, Director, Office of Audit and Evaluation, AAE-1
Subject:        Federal Aviation Administration’s (FAA) Response to Office of Inspector
                General (OIG) Draft Report: FAA’s Runway Safety Technologies


The FAA is committed to enhancing airport safety through significant investments in the
development and deployment of new technology surface surveillance systems. The
Surveillance and Broadcast Services (SBS) program will deploy a new technology,
Airport Surface Surveillance Capability (ASSC), at airports that did not receive an
Airport Surface Detection Equipment, Model X (ASDE-X) system. ASSC will provide
enhanced surface situational awareness and advanced warnings of potential runway
incursions at nine U.S. airports, 1 and additional sites are under consideration. Each
ASSC deployment will incorporate a number of sensors 2 and software for a single,
combined view of the airport runways and taxiways. The flexible nature of the ASSC
system architecture enables future airport surface safety enhancements, such as Runway
Status Lights (RWSL), and airport surface movement data distribution to other approved
systems and users.

In addition, the SBS program introduced an enhancement to the ASDE-X system to
perform multilateration surveillance on the Universal Access Transceiver 3 data link. This
upgraded capability provides a layered approach for surveillance of 978MHz equipped
aircraft and vehicles and was completed in 2013.

ADS-B also provides the additional surveillance layer for surface operations with both
aircraft and vehicles and enables advanced cockpit applications and improved data
sharing for surface management. The deployment and integration of the ADS-B system

1
    Anchorage, Andrews AFB, Cincinnati/Northern Kentucky, Cleveland, Kansas City International, New Orleans,
    Pittsburgh, Portland and San Francisco
2
    Automatic dependent surveillance-broadcast (ADS-B) and multilateration, but not primary radar which is used
    primarily for non-cooperative vehicles/aircraft
3
    A Universal Access Transceiver (UAT) refers to a data link intended to serve the majority of the general aviation
    community.


Appendix. Agency Comments
                                                                                                                  21


in the surface domain will be completed by the end of 2014 at ASDE-X sites and in 2017
at ASSC sites.

RWSL systems integrate airport lighting equipment with approach and surface
surveillance systems to provide a visual signal to pilots and vehicle operators indicating
that it is unsafe to enter, cross, or begin takeoff on a runway. In July 2013, the Joint
Resources Council made the decision to reduce the quantity of airports that would receive
a RWSL system from 23 to 17. All Initial Operating Capability (IOC) and Operational
Readiness Demonstration 4 at these 17 5sites are scheduled to be completed by the end of
fiscal year 2017. The remaining six sites will be addressed in a second phase of the
program in which the agency will analyze technology and non-technology alternatives to
directly address runway incursions at future airport sites. Since the program was
rebaselined, the RWSL program has made steady progress with the implementation of the
system. Since the commissioning of the Orlando site in August 2013, IOC has been
achieved at six additional sites (Dulles, Phoenix, Minneapolis, Houston Intercontinental,
Seattle, and Las Vegas). Of these six sites, two sites, Phoenix and Houston
Intercontinental, have also been commissioned.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Develop and implement a plan, in coordination with airport
authorities, to address issues, such as construction schedules and site adaptation/design
that may impede RWSL’s deployment within cost and schedule estimates.

FAA Response: Concur. The FAA’s RWSL program office has standardized a process
for communicating with airport authorities in order to facilitate RWSL deployment
within cost and schedule estimates. The process is described in detail in the RWSL
Implementation Plan. A site coordination lead is assigned as the primary point of contact
between the program office and the airport authority. The program office coordinates
closely with the respective airport authorities in the development of a memorandum of
agreement (MOA), which documents the work to be accomplished, the cost of the work,
the timeframe, and each party’s responsibilities.

During the development of the MOA, the program office explicitly communicates to the
airport authority, the not-to-exceed funding budget and schedule for the project.
Subsequently, during the site design process, the program office confers with the airport
authority each step of the way. In addition to numerous design telecons, there are a
minimum of two on-site design review meetings to resolve any noted discrepancies or



4
    IOC is a milestone met when the system is deemed acceptable to be introduced into the operational environment at a
     site. Operational Readiness Demonstration is when the system is certified and commissioned into NAS service after
     demonstration of readiness for full operational service at a site.

5
    Orlando, Dulles, Phoenix, Minneapolis, Houston, Seattle, Charlotte, Las Vegas, Ft. Lauderdale, Detroit, LaGuardia,
     Chicago, Los Angeles, Newark, John F. Kennedy, San Francisco and Baltimore-Washington.




Appendix. Agency Comments
                                                                                            22


deficiencies. This same high level coordination and communication is applied through
pre-construction, construction, installation, and activation of service.

In accordance with FAA’s acquisition practices, the program office is in the process of
updating the RWSL Implementation Plan. The program office anticipates completing the
update by June 30, 2014, and will provide a copy at that time.

Recommendation 2: Develop and finalize timetables as to when ADS-B can be
expected to impact surface surveillance systems through the use of moving map
information in cockpit displays and surface alerts for pilots.

FAA Response: Concur. ADS-B target data depicted on moving map cockpit displays
are currently available. Minimum Operating Performance Specifications (DO-317A)
containing the requirements of Basic Surface Situation Awareness were published in
2011 by Radio Technical Commission for Aeronautics. In 2012, FAA published
Technical Standard Order (TSO-C195a) and Advisory Circular (AC 20-172A). These
documents form the regulatory framework for manufacturers to build and install avionics
that overlays surveillance data for surface traffic on a moving map on cockpit displays.
The FAA requests that this recommendation be closed.

Recommendation 3: Develop specific milestones for integrating ASDE-X, ASSC,
RWSL, and ADS-B based upon coordination between offices involved in runway
safety; identify the offices accountable for achieving these milestones; and publish this
information in the FAA National Runway Safety Plan.

FAA Response: Partially Concur. The National Runway Safety Plan (NRSP) is a high-
level strategic document, and as such, specific programmatic milestones are not
appropriate for inclusion in the NRSP. The Program Management Organization (PMO)
produces more appropriate and timely reports of related milestones on a regular basis.
The Office of Safety and Technical Training will coordinate with the PMO to identify the
respective accountable offices for FAA’s surface surveillance priorities, and will publish
this information (not milestones) in the next NRSP, which will be completed by
September 30, 2014.




Appendix. Agency Comments
